OFFICE OF INSPECTOR GENERAL



AUDIT OF USAID’s
REASONABLE
ACCOMMODATION POLICIES
AND PROCEDURES
AUDIT REPORT NO. 9-000-06-003-P
DECEMBER 13, 2005




WASHINGTON, DC 

December 13, 2005


MEMORANDUM

TO:            Director, Office of Equal Opportunity Programs, Jessalyn L. Pendarvis

FROM:          Director, Performance Audits Division, Steven H. Bernstein /s/

SUBJECT:       Audit of USAID’s Reasonable Accommodation Policies and Procedures (Report
               No. 9-000-06-003-P)

This memorandum transmits our final report on the subject audit. In finalizing the report, we
considered your comments on our draft report and have included your response in their entirety
as Appendix II.

The report includes five recommendations. Three of these recommendations concern revising,
submitting and publishing USAID’s reasonable accommodation policies and procedures in its
Automated Directives System to comply with Executive Order 13164 and the Equal Employment
Opportunity Commission guidance. The remaining two recommendations concern Equal
Opportunity Program’s need to establish a timeframe to update tracking information on a periodic
basis to accurately reflect requests, elapsed processing time, final dispositions, and impact; and
establish a schedule to periodically review management reports on reasonable accommodation
requests to determine whether processing is occurring within required timeframes.

We consider that final actions have been taken to address our concerns regarding
Recommendation Nos. 1 and 2. Regarding Recommendations Nos. 3, 4, and 5, we determined
that the planned actions, when implemented, will address these recommendations. Accordingly,
management decisions have been reached on each of these recommendations. Please
coordinate final action on Recommendation Nos. 3, 4, and 5 with the Bureau for Management’s
Office of the Chief Financial Officer, Audit, Performance and Compliance Division.

I appreciate the cooperation and courtesy extended to each member of my staff throughout the
audit.
CONTENTS

Summary of Results ....................................................................................................... 1 


Background ..................................................................................................................... 2 


Audit Objective .................................................................................................................. 3


           Are USAID’s reasonable accommodation policies and procedures 

           in compliance with Executive Order 13164 and Equal Employment 

           Opportunity Commission guidance? ..................................................................... 3 


Audit Findings ................................................................................................................. 4 


           The Office of Equal Opportunity Programs Should Revise, Submit 

           for Review and Publish USAID Guidance to Comply With 

           Executive Order 13164 and Equal Employment Opportunity 

           Commission Guidance .......................................................................................... 5 


           The Office of Equal Opportunity Programs Should Update and

           Maintain its Reasonable Accommodation Tracking Report................................... 7 


           The Office of Equal Opportunity Programs Should Process 

           Reasonable Accommodation Requests In a Timely Manner ................................ 8 


           The Office of Equal Opportunity Programs Should Update 

           Information in USAID’s Automated Directives System........................................ 10 


Evaluation of Management Comments ....................................................................... 12 


Appendix I – Scope and Methodology ........................................................................ 14 


Appendix II – Management Comments ....................................................................... 16 


Appendix III – EOP Reasonable Accommodation Requests .................................... 20 


Appendix IV – EOP Staffing, Budget & Funding FY 2002 – FY 2004 ....................... 22 


Appendix V – EEOC Guidance, USAID Policies/Procedures, and 

             EEOC Review ........................................................................................ 23 

SUMMARY OF RESULTS

The Performance Audits Division of USAID’s Office of Inspector General designed this
audit to determine if USAID’s reasonable accommodation policies and procedures were in
compliance with Executive Order 13164 and Equal Employment Opportunity Commission
guidance. (see page 3).

Over the past three years, USAID’s reasonable accommodation policies and procedures
had not been in compliance with Executive Order 13164 and Equal Employment
Opportunity Commission guidance. Although USAID’s Office of Equal Opportunity
Programs (EOP) had drafted its reasonable accommodation guidance, and begun
operating internally under the new guidance, EOP had not submitted the revisions to the
Equal Employment Opportunity Commission for review or published the new reasonable
accommodation guidance in USAID’s Automated Directives System (ADS) in a timely
manner.     Further, EOP had not established a schedule to periodically review
management reports on reasonable accommodation requests to determine whether
processing is occurring within prescribed timeframes and had not updated or maintained
their reasonable accommodation tracking report on a periodic basis to accurately reflect
the status and disposition of the reasonable accommodation requests.

We made five recommendations to address the issues identified in this report. We
recommended that EOP: revise USAID’s guidance to comply with Executive Order
13164 and Equal Employment Opportunity Commission guidance (see page 6); submit
USAID’s revised reasonable accommodation policies and procedures to the Equal
Employment Opportunity Commission for final review (see page 7); publish USAID’s
revised reasonable accommodation policies and procedures in the ADS (see page 7);
establish a timeframe to update its tracking information on a periodic basis to accurately
reflect requests, elapsed processing time, final dispositions and impact (see page 8);
and establish a schedule to periodically review management reports of reasonable
accommodation requests to determine whether compliance is occurring within required
timeframes (see page 10).

In response to the draft report, EOP officials concurred with the findings and
recommendations. EOP officials have taken final action on Recommendation Nos. 1
and 2 prior to the issuance of this report and management decisions have been reached
for Recommendation Nos. 3, 4 and 5 (see page 12).

Management comments are included in their entirety in Appendix II.




                                                                                        1
BACKGROUND

On July 26, 2000, President William Jefferson Clinton signed Executive Order 13164
that required each Federal agency to establish effective written procedures for
processing requests for reasonable accommodation. A reasonable accommodation is
defined as a change in the work environment or in the way things are customarily done
that would enable an individual with a disability to enjoy equal employment opportunities.
As an important part of the government’s national policy to create additional employment
opportunities for people with disabilities, Executive Order 13164 strengthens the
Rehabilitation Act of 1973 (29 U.S.C. 701 et seq.), as amended.1

The Equal Employment Opportunity Commission (Commission), as the cognizant
Federal agency, issued the Policy Guidance on Executive Order 13164: Establishing
Procedures to Facilitate the Provision of Reasonable Accommodation on October 20,
2000. The Commission identified three categories of reasonable accommodations as
follows:

•	 Modifications or adjustments to a job application process to permit an individual with
   a disability to be considered for a job (such as providing application forms in
   alternative formats like large print or Braille);
•	 Modifications or adjustments necessary to enable a qualified individual with a
   disability to perform the essential functions of the job (such as providing sign
   language interpreters); and
•	 Modifications or adjustments that enable employees with disabilities to enjoy equal
   benefits and privileges of employment, such as removing physical barriers in an
   office or other work-related environment.

The Commission also issued, Enforcement Guidance: Reasonable Accommodation and
Undue Hardship Under the Americans with Disabilities Act, which it revised October 17,
2002. This enforcement guidance clarifies the rights and responsibilities of employers
and individuals with disabilities regarding reasonable accommodation and undue
hardship. The Commission defines “undue hardship" as significant difficulty or expense
that focuses on the resources and circumstances of an employer as compared to the
cost or difficulty of providing a specific accommodation. Undue hardship refers not only
to financial difficulty, but also to reasonable accommodations that are unduly extensive,
substantial, or disruptive, or those that would fundamentally alter the nature or operation
of the business. Among other things, the guidance examines the following attributes:

•	   What a “reasonable accommodation” means;
•	   Who is entitled to receive a “reasonable accommodation;”
•	   What constitutes a “reasonable accommodation request;”
•	   The form and substance of a “reasonable accommodation request;” and
•	   The employer’s ability to ask questions and seek documentation for a “reasonable
     accommodation” request.

1
  The Rehabilitation Act of 1973 (29 U.S.C. 701 et seq.) prohibits discrimination of individuals with
disabilities in the federal sector. The Americans with Disabilities Act amends definitions of the
Rehabilitation Act and further, requires an employer to provide reasonable accommodations for
individuals with disabilities.


                                                                                                   2
USAID, through its Office of Equal Opportunity Programs (EOP), published USAID’s
guidance on reasonable accommodations in its Automated Directives System (ADS) 110
and, in 2001, updated it to comply with the Executive Order. However, the Commission
reviewed USAID’s guidance in January 2002 and determined that USAID was not fully
compliant with the Executive Order.

From June 1999 to June 2005, EOP processed 62 requests for reasonable
accommodations.      These requests fall into the general categories of computer
equipment, travel accommodations, work schedule or work place changes, and mobility-
related accommodations and/or office furniture modifications.


AUDIT OBJECTIVE
This audit was a part of the Office of Inspector General’s Performance Audits Division’s
fiscal year 2005 audit plan and was conducted to answer the following question:

   •	 Are USAID’s reasonable accommodation policies and procedures in compliance
      with Executive Order 13164 and Equal Employment Opportunity Commission
      guidance?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                      3
AUDIT FINDINGS

For over three years, USAID’s reasonable accommodation policies and procedures had
not been in compliance with Executive Order 13164 and Equal Employment Opportunity
Commission (Commission) guidance. Although USAID’s Office of Equal Opportunity
Programs (EOP) had drafted its reasonable accommodation guidance, and begun
operating internally under the new guidance, EOP had not submitted the revisions to the
Commission for review or published the revisions to the reasonable accommodation
guidance in USAID’s Automated Directives System (ADS) in a timely manner.

Specifically, the Commission identified seven subject area elements where USAID’s
proposed revisions did not appear to properly address requirements of the Executive
Order regarding processing requests for reasonable accommodation, as shown in
Appendix V. The Commission suggested revisions to these seven areas of USAID’s
guidance that included: (1) initiating the reasonable accommodation process; (2)
establishing time limits; (3) requesting and receiving medical information; (4) granting
reassignments; (5) denying reasonable accommodation requests; (6) tracking
information; and (7) resolving disputes informally. The Commission also suggested
several clarifications to USAID’s proposed changes to its ADS guidance that may help to
simplify language that could be misunderstood or confusing to a requestor in some of
the subject areas. The revisions to USAID’s guidance are discussed below.

EOP processed 52 reasonable accommodation requests between June 2002 and June
2005.2 Of the 52 requests, EOP granted 26 requests and denied 11 requests because
some requestors did not properly satisfy requirements for some of the subject area
elements, such as for medical information. Specifically, EOP denied some of the
accommodations requests because the requests were either not essential for the
described medical condition; the medical condition did not qualify as a disability; medical
documentation was insufficient; or because the accommodation would cause undue
hardship or disruption to USAID’s operations. For the remaining 15 requests for
reasonable accommodation, 11 requestors withdrew their applications for EOP
consideration and EOP’s tracking report was incomplete for four of the requests as
illustrated in Appendix III.3

EOP has experienced difficulties in the following four problem areas: 1) complying with
Executive Order 13164 and the Commission guidance; 2) timeliness of processing
accommodation requests; 3) updating and maintaining its reasonable accommodation
tracking report; and 4) updating Information in USAID’S Automated Directives System,
as discussed below.


2
  The Office of Equal Opportunity Programs processed 62 reasonable accommodation requests.
Of the 62 requests, we excluded six requests that were upgrades to existing accommodations,
three requests that were completed prior to 2002, and one request that was pending further
adjudication by EOP, resulting in our review of 52 requests.
3
  According to the EOP case files, some requestors withdrew their applications for reasonable
accommodations because their issues were resolved before the EOP review process was
completed. In a few other cases, the EOP files did not include information about the reasons that
some requestors withdrew their reasonable accommodation requests.


                                                                                               4
The Office of EOP Should Revise, Submit for Review, and
Publish USAID Guidance to Comply with Executive Order 13164
and Equal Employment Opportunity Commission Guidance

    Summary: Although Executive Order 13164 required Federal agencies to establish
    effective written procedures to facilitate the provisions for reasonable
    accommodations and submit these procedures to the Commission within a year,
    EOP had not met this requirement because they had not updated its guidance and
    submitted it to the Commission for a subsequent review within the required
    timeframe. This occurred because of insufficient staffing and other competing
    priorities, according to EOP officials. As a result, USAID has not fully complied with
    Executive Order 13164 and the Equal Employment Opportunity Commission
    guidance for processing requests for reasonable accommodations for more than
    three years.

In July 2000, Executive Order 13164 (Executive Order) required Federal agencies to
establish effective written procedures to facilitate the provisions for reasonable
accommodations and submit the procedures to the Equal Employment Opportunity
Commission (Commission) for review within one year. U.S. Government lawmakers
envisioned that the Executive Order, among other things, would promote a model
Federal workplace that provides reasonable accommodation for (1) individuals with
disabilities in the application process for Federal employment; (2) Federal employees
with disabilities to perform the essential functions of a position; and (3) Federal
employees with disabilities to enjoy benefits and privileges of employment equal to those
enjoyed by employees without disabilities.

EOP submitted USAID’s proposed policies and procedures to the Commission, as
required. However, the Commission identified areas where USAID’s proposed language
did not meet the requirements of the Executive Order or the Commission’s guidance.
Specifically, the Commission indicated that in several instances, USAID guidance
improperly required some documentation and/or actions from applicants and did not fully
explain some requirements which may mislead USAID officials to incorrect conclusions.
Although EOP received the Commission’s comments on USAID’s proposed revisions to
its reasonable accommodation policies and procedures in January 2002, EOP had not
revised, updated and published USAID’s guidance, as of September 2005. After
receiving the Commission’s comments to USAID’s reasonable accommodation policies,
EOP forwarded the revised policy to the Bureau for Management, Administrative
Services, Information and Records Division.4 The Information and Records Division
(IRD) performed its review and subsequently sent its comments back to EOP for
resolution in 2003. However, EOP did not expeditiously resolve the editorial or
substantive changes recommended by the IRD or submit the updated information for a
final revised reasonable accommodation policy to the Commission or publish the revised
information in the Automated Directives System (ADS). Moreover, although IRD
requested annual certification for updates to information contained in USAID’s ADS from
all USAID offices, in FY 2002 and FY 2004 EOP did not respond or provide any updated
information, resulting in USAID’s guidance not being revised or published.


4
 This division is responsible for reviewing substantive changes and format changes to USAID’s
Automated Directives System guidance.


                                                                                             5
According to EOP officials, they did not revise and issue the reasonable accommodation
policies and procedures because of insufficient staffing and other competing work
priorities. Over the past three years, USAID authorized EOP eight full-time staff
positions. However, as shown in Appendix IV, in FY 2002, EOP was understaffed by
one; in FY 2003, EOP was understaffed by three; and again in 2004, EOP was
understaffed by three positions. Although the EOP Director stated that the office
aggressively pursued efforts to increase the staff during the annual budget justification
process, EOP was not successful in obtaining the staff necessary to conduct many of
the office functions. Furthermore, although EOP interviewed and hired several
employees during the last three years, they have not been able to retain many of the
new employees for long periods of time.                To manage processing reasonable
accommodation requests as well as other priorities, EOP augmented its staff by hiring a
contractor and “borrowing” one employee, on detail, from the Department of State to
complete much of the office work.             Currently the office is actively recruiting and
interviewing qualified applicants to fill three vacancies.

Although EOP drafted revisions to USAID’s reasonable accommodation policies and
procedures, USAID has not complied with Executive Order 13164 and the Equal
Employment Opportunity Commission guidance for processing requests for reasonable
accommodations. In its January 2002 review, the Commission cited several examples
where the USAID guidance did not appear to properly address such issues that included
initiating the reasonable accommodation process, establishing time limits, and
requesting and receiving medical information. In fact, the Commission cited examples
wherein wording as well as incomplete information in the USAID guidance could mislead
USAID officials and requestors of reasonable accommodations. For example, USAID
required a reasonable accommodation request to be written. According to the Executive
Order, a reasonable accommodation request may be oral or written. In another
example, USAID required requestors to submit administratively acceptable medical
documentation with the written request for reasonable accommodation. In accordance
with the Commission Guidance, the request for reasonable accommodation is a
statement that an individual needs an adjustment or a change at work. Additional
information may be obtained through the interactive process which follows the request.
Since reasonable accommodation is a fundamental statutory requirement, USAID should
eliminate any barriers that could cause foreseen delays. Furthermore, due to the highly
sensitive nature of reasonable accommodation requests, noncompliance could be
misinterpreted as discrimination against an applicant or employee with a disability. The
resulting exposure of USAID to time-consuming and costly litigation for an alleged
impropriety can be eliminated or reduced by adhering to statutory requirements. The
lack of consistency or incomplete information contained in USAID guidance, as
compared to information in the Executive Order, does not provide the necessary basic
foundation to eliminate ambiguities and misinterpretation of legal requirements that could
cause, at a minimum, the unnecessary delay in processing requests and providing
reasonable accommodations.

       Recommendation 1: We recommend that the Office of the Equal
       Opportunity Programs revise USAID’s reasonable accommodation
       policies and procedures to comply with Executive Order 13164 and Equal
       Employment Opportunity Commission guidance.




                                                                                           6
       Recommendation 2: We recommend that the Office of Equal Opportunity
       Programs submit USAID’s revised reasonable accommodation policies
       and procedures to the Equal Employment Opportunity Commission for
       final review.

       Recommendation 3: We recommend that the Office of Equal Opportunity
       Programs publish USAID’s revised reasonable accommodation policies
       and procedures in the Automated Directives System.


The Office of Equal Opportunity Programs
Should Update and Maintain its Reasonable
Accommodation Tracking Report

  Summary: Executive Order 13164 requires Federal agencies to ensure that their
  system of record-keeping tracks the processing of requests for reasonable
  accommodations and includes specific information. Although EOP developed a
  tracking report, as shown in Appendix III, it did not update some of the attributes in
  its report with relevant information. This occurred because management did not
  periodically review the report to ensure that it was updated. Accordingly, the
  tracking report did not provide management with the most up-to-date and relevant
  information on the status of the program that would allow managers to calculate
  processing time or identify other attributes such as the number and type of
  requests, and reasons for denials that would indicate any need to modify USAID’s
  operations in processing reasonable accommodations.

Executive Order 13164 also requires Federal agencies to ensure that their system of
record-keeping tracks the processing of requests for reasonable accommodations and
include specific information. To assist agencies in meeting the tracking requirements,
the Commission published two documents: Policy Guidance on Executive Order 13164:
Establishing Procedures to Facilitate the Provision of Reasonable Accommodation and
Enforcement Guidance: Reasonable Accommodation and Undue Hardship Under the
Americans With Disabilities Act.         The Commission’s policy guidance requires all
agencies to be able to identify the following information:

•	 The number and type of reasonable accommodations that have been requested in
   the application process and whether those requests have been granted or denied;
•	 The reasons, if denied, and the amount of time taken to process reasonable
   accommodation requests;
•	 The sources of technical assistance consulted identifying possible reasonable
   accommodations;
•	 The jobs and types of reasonable accommodations that have been requested for the
   jobs, as well as the number and types of reasonable accommodations for each job,
   by USAID component, that have been approved and denied; and
•	 The number and types of requests for reasonable accommodations that relate to the
   benefits of privileges of employment, and whether those requests have been granted
   or denied.




                                                                                           7
Although EOP prepared a tracking report, as shown in Appendix III, it did not update the
report with relevant information on a consistent basis. In 48 instances, EOP had not
updated information on important attributes such as the decision dates, processing
times, and final disposition.

According to EOP officials, a staff member was responsible for updating the tracking
report. However, EOP management did not review the report to determine that it was
updated with critical information necessary to provide management and other
stakeholders with valuable program information. Subsequently, the staff member left
EOP employment and EOP management could not easily update the tracking
information to provide accurate management reports.

The tracking report provides invaluable management information by which USAID
officials plan their work, set priorities, and review progress to improve their operations.
Moreover, tracking information provides management and other stakeholders with
information necessary to make informed management decisions that can improve a
program. Without updated information, USAID management could not calculate the
processing time for reasonable accommodation requests to determine if requests were
processed within established timeframes or identify other attributes such as the use of
medical consultants, the number and type of requests, and reasons for denials.

       Recommendation 4: We recommend that the Office of Equal Opportunity
       Programs establish a timeframe to update its tracking information on a periodic
       basis to accurately reflect requests, elapsed processing time, final dispositions,
       and impact.


The Office of Equal Opportunity Programs Should
Process Reasonable Accommodation Requests in
a Timely Manner

  Summary: Executive Order 13164 requires time limits for decision making to be as
  short as reasonably possible. USAID’s Automated Directives System 110.3.5.6,
  Section G, states that a decision will be made on a reasonable accommodation
  request within 30 days of a request for an accommodation that includes all
  necessary medical documentation. However, EOP’s processing time for reasonable
  accommodation ranged from seven days to 415 days. Although EOP case files
  indicated that it solicited additional information from some of the requestors, EOP
  did not process 21 out of 52 accommodation requests within USAID’s established
  processing timeframe. In many cases, according to EOP officials, this occurred
  because of EOP’s insufficient level of staffing and because some applicants did not
  provide information in a timely manner. Consequently, in some cases, employees
  may have been unable to perform their work effectively while waiting on a
  reasonable accommodation request to be processed.

Executive Order 13164, Section 1, Establishment of Effective Written Procedures to
Facilitate the Provision of Reasonable Accommodation, Subpart 3, requires time limits
for decision making to be as short as reasonably possible. USAID’s Automated
Directives System 110.3.5.6, Section G, stipulates, among other things, that a decision
will be made on a reasonable accommodation request within 30 days of a request that


                                                                                         8
includes all necessary medical documentation. Additionally, a requester is entitled to
receive a written EOP response within five working days after a USAID decision.

Of the 52 reasonable accommodation requests that we reviewed on EOP’s tracking
report, 13 requests were processed within the established 30-day timeframe.5 Of the 52,
21 of the reasonable accommodation requests were not processed within USAID’s
established timeframe. The processing time for all of the reviewed requests, ranged
from seven to 415 days, as illustrated in Appendix III. For the remaining 18 requests,
EOP officials did not determine whether the requests were processed in a timely manner
and did not indicate whether it requested additional medical documentation or whether
other additional documentation was necessary for review. In one case, an employee
made an initial contact regarding an accommodation directly to his/her supervisor. It
took approximately three and a half months for the request to reach EOP for
consideration. To EOP’s credit, it processed this request within two weeks. But, the
employee received his/her accommodation approximately four months after his/her initial
request. In another example, for unknown reasons, an employee indicated he/she had
also tried to obtain a reasonable accommodation for approximately four months before
receiving final resolution for a specific reasonable accommodation.

Since USAID staffing levels have continued to decline since the 1990’s, the challenge to
managers continues to be to better prioritize the workload and mandatory tasks.
According to EOP officials, EOP did not process many of the reasonable
accommodation requests in a timely manner, because of its level of staffing and in some
cases; some requestors did not provide information in a timely manner. EOP case files
showed that despite its efforts to solicit needed information for further review, some of
the applicants did not always submit requested additional medical documentation, as
required. In one example, EOP initiated communication requesting appropriate medical
documentation for three consecutive months before receiving the medical support after
approximately four months. The decision to approve the accommodation took an
additional two months. Although the EOP was not timely in processing some of the
requests, officials believed they were able to address the majority of requests that
required immediate attention despite its staffing shortages or other priorities. However,
EOP did not document or record exceptions as required by the Executive Order to
indicate whether requestors suffered any negative effects resulting from excessive
processing times.

Without documenting or recording exceptions to USAID’s processing times in its
management reports, USAID management cannot be assured that requests for
reasonable accommodations are processed in a timely manner, as required. The
Executive Order stipulates that the specific time limitation for data submissions, and the
review process after the Office of Equal Opportunity Programs obtains sufficient data by
which to conduct its review and make an ultimate determination, be as short as
reasonably possible. In some instances, requestors may be denied an opportunity to
apply for a job or participate in an USAID activity that is scheduled to commence in a
short time. As a result, management cannot decisively conclude that requests are
handled expeditiously and that the lack of timeliness does not leave USAID vulnerable
to, at minimum, complaints by requestors who are adversely impacted by lengthy
processing times.


5
    See footnote number 2.


                                                                                        9
       Recommendation 5: We recommend that the Office of Equal Opportunity
       Programs establish a schedule to periodically review management
       reports on reasonable accommodation requests to determine whether
       processing is occurring within required timeframes.


The Office of Equal Opportunity Programs
Should Update Information in USAID’S
Automated Directives System

  Summary: Automated Directives System (ADS) 501.3.6 identifies the lines of
  authority and responsibility as well as the process by which new information and
  revisions are incorporated into the ADS.           Despite this annual certification
  requirement, the Office of Equal Opportunity Programs did not respond to the
  Bureau for Management, Administrative Services, Information and Records
  Division request for the annual certification for updates to information contained in
  the ADS for FY 2002 and FY 2004. According to EOP officials, insufficient staffing
  levels, staff changes, and other competing work priorities caused them not to
  respond to requests for annual certification and/or not to provide their revisions to
  the Information and Records Division for review. As a result, USAID officials were
  not aware that EOP did not respond to requests for updated information, even
  when updates to information were needed and warranted to comply with Executive
  Order 13164.

Automated Directives System (ADS) 501.3.6 stipulates that the Bureau for Management,
Administrative Services, Information and Records Division conduct an annual review of
USAID’s ADS material by sending a request for certification to appropriate management
officials. Each management official or its designee must conduct a review and notify the
Information and Records Division as to whether its office’s policies and procedures are
still current and effective.

On an annual basis USAID officials certify that their ADS chapters are current or submit
changes to revise the published information. Despite the certification requirement, the
Office of Equal Opportunity Programs did not respond to the Information and Records
Division regarding the annual certification for updates to EOP information contained in
the ADS for FY 2002 and 2004. However, in FY 2003, EOP responded indicating that it
had revisions that it would submit by September 2003. But, EOP did not submit the
revised policy to the Information and Records Division for review and ultimate
publication.

According to EOP officials, staffing levels, staff changes, and other competing work
priorities caused them not to respond to requests for annual certification and/or not to
provide their revisions to the Information and Records Division for review. For these
reasons, USAID’s policies and procedures for reasonable accommodation have not
been updated since FY 2002. Accordingly, USAID’s reasonable accommodation
policies and procedures have not been updated to comply with Executive Order 13164
and Equal Employment Opportunity Commission guidance.


                                                                                          10
Compliance with the fundamental statutory requirement is necessary so that USAID
maintains its best effort to ensure that discrimination faced by individuals with disabilities
is discouraged. If it does not achieve that goal, USAID has not fulfilled the basic
requirement to publicize the best available information regarding reasonable
accommodation. The ultimate goal for USAID should be to draft a policy that publicizes
the proper requirements and provides complete and clear information so that requestors
or others can easily understand what actions to take.

Although we did not make a formal recommendation, USAID’s Bureau for Management,
Administrative Services, Information and Records Division drafted policies and
procedures to address non-responses to USAID’s annual certification process, as of
November 18, 2005. The division has proposed that USAID respond to annual
certification delinquencies by using elevation procedures so that USAID management,
up to the USAID Administrator, are notified and provided an opportunity to resolve any
issues. These draft policies and procedures are presently undergoing a review by senior
management.




                                                                                           11
EVALUATION OF
MANAGEMENT COMMENTS
In their response to the draft report, EOP officials concurred with all five
recommendations, and described actions taken and planned to address the
recommendations. As a result, we consider that final action has been taken on
Recommendation Nos. 1 and 2 and management decisions have been reached on
Recommendations Nos. 3, 4 and 5.

To address Recommendation No. 1, EOP officials revised USAID’s reasonable
accommodation policies and procedures. We believe that this action brings USAID’s
Automated Directives System into compliance with both Executive Order 13164 and
Equal Employment Opportunity Commission guidance. Accordingly, EOP officials have
taken final action on this recommendation prior to our report issuance.

To address Recommendation No. 2, EOP officials submitted the proposed revisions to
ADS Chapter 110 on reasonable accommodations to the Equal Employment Opportunity
Commission on October 14, 2005. We reviewed the proposed revision and determined
that an omission occurred regarding “reassignment” language. EOP subsequently
submitted its revised documentation on “reassignment” to the Equal Employment
Opportunity Commission on November 14, 2005. Accordingly, EOP officials have taken
final action on this recommendation prior to our report issuance.

To address Recommendation No. 3, EOP officials: 1) submitted to the Bureau for
Management, Administrative Services, Information and Resource Division, a revised
reasonable accommodation policy for approval and publication; 2) posted the approved
interim reasonable accommodation policy update to the Agency’s notice system for
agency-wide dissemination; and 3) plan to update the Automated Directives System
within 30 days after approval of the revised policy from the Equal Employment
Opportunity Commission. We reviewed the revised reasonable accommodation policy,
confirmed the dissemination of the policy update in an Agency-wide notice and
concurred with their plan to update the Automated Directives System within 30 days
after receiving approval from the Equal Employment Opportunity Commission.
Accordingly, a management decision has been reached on this recommendation.

To address Recommendation No. 4, (was Recommendation No. 5 in the draft report)
EOP officials plan to designate a staff person to update and maintain the office’s
reasonable accommodation tracking system on a monthly basis effective March 1, 2006.
Accordingly, a management decision has been reached on this recommendation.

To address Recommendation No. 5, (was Recommendation No. 4 in the draft report)
EOP officials plan to redesign their current reasonable accommodation tracking system
to capture the actual processing time beginning with the receipt of all required
information and terminating with the requestors’ notification of approval or denial. A
target completion date of March 1, 2006 has been established to place the redesigned
tracking system into operation. In addition, starting in January 2006, the EOP Director,



                                                                                     12
or designee, shall conduct a quarterly review of the Agency’s reasonable
accommodation tracking system. Accordingly, a management decision has been
reached on this recommendation.

Additionally, the order of Recommendation Nos. 4 and 5 has been changed since EOP
reviewed the draft report.      Consequently, EOP comments regarding the draft
Recommendation No. 4 relates to Recommendation No. 5 in the final report.
Conversely, EOP comments regarding draft Recommendation No. 5 refers to
Recommendation No. 4 in the final report.

Management’s comments are included in their entirety (without attachments) in
Appendix II.




                                                                              13
                                                                                         APPENDIX I




SCOPE AND METHODOLOGY

Scope
The Office of Inspector General’s Performance Audits Division conducted this audit in accordance
with generally accepted government auditing standards to determine whether USAID’s reasonable
accommodation policies and procedures are in compliance with Executive Order 13164 and Equal
Employment Opportunity Commission (Commission). We conducted the fieldwork for this audit at
USAID’s Office of Equal Opportunity Programs (EOP) in Washington D.C. from May 12, 2005 to
September 1, 2005.

In planning and performing the audit, we obtained an understanding of the management
controls related to documentation, accurate and timely recording of transactions and events,
and supervision for the Office of Equal Opportunity Program’s processing of 62 reasonable
accommodation requests reported from June 1999 to June 2005. We reviewed however, 52
reasonable accommodation requests which were completed between June 2002 and June 2005.

During our initial planning, we considered the significance or noncompliance rate for the entire
universe of reasonable accommodation requests that EOP reviewed. We did not establish a
materiality threshold for this audit because Commission officials informed us at the start of the audit
that USAID’s Automated Directives System guidance on reasonable accommodation was not in
compliance with Executive Order 13164 and Equal Employment Opportunity Commission
guidance.


Methodology
To answer the audit objective, we conducted interviews with staff from the Commission, USAID’s
Equal Opportunity Program (EOP), and USAID’s Bureau for Management’s, Office of
Administrative Services, Information and Records Division. We reviewed Executive Order 13164;
the Equal Employment Opportunity Commission’s Enforcement Guidance: Reasonable
Accommodation and Undue Hardship Under the Americans with Disabilities Act; and Policy
Guidance on Executive Order 13164: Establishing Procedures to Facilitate The Provision of
Reasonable Accommodation; the Americans With Disabilities Act; the Rehabilitation Act of 1973
(29 U.S.C. 701) et seq.). Additionally, we reviewed the Office of Equal Opportunity Program’s
2000-2004 Federal Managers Financial Integrity Act, annual assessments, staffing, budget and
funding data from FY 2002 – 2005, tracking information, case files, and applicable USAID
guidance. We also reviewed the Bureau for Management, Office of Administrative Services,
Information and Resource Division’s response tracking information and applicable correspondence
with the Office of Employment Opportunity Programs for the annual update to the Automated
Directives System certification process for fiscal years 2002, 2003, and 2004.

To illustrate the differences between the pertinent Federal guidance being used and the
interpretation of the Executive Order, we prepared a comparative analysis, as shown in Appendix
V, that list the differences between the current USAID guidance on reasonable accommodations,
the Commission’s guidance on reasonable accommodations, and review of USAID’s proposed
revisions to its reasonable accommodation guidance.

Using the Office of Equal Opportunity Programs’ accommodation request tracking report to
determine whether EOP was processing its accommodation requests in accordance with the
                                                                                                    14
                                                                                 APPENDIX I


Commission’s guidance, we determined the processing times from the point of initial contact to
EOP’s final determination date for each request where data was available.




                                                                                           15
                                                                                 APPENDIX II




MANAGEMENT COMMENTS 





 MEMORANDUM

To:	          Steven H. Bernstein, IG/A/PA

From: 	       Jessalyn L. Pendarvis, D/EOP /s/

Subject:	     Response to Audit of USAID’s Reasonable Accommodation Policies and
              Procedures (Report No. 9-000-06-00X-P)


This memorandum transmits the Office of Equal Opportunity Programs response to the OIG’s
draft report on the Audit of USAID’s reasonable accommodation policy. Per your instructions,
EOP has stated its position on each of the recommendations and included its action plan for
implementation.

Please feel free to contact me or Carolyn Mackey-Bryant, Deputy Director, with any questions
regarding this document. I can be reached at X21110.




                                                                                        16
                                                                                     APPENDIX II


Recommendation 1: We recommend that the Office of Equal Opportunity Programs
revise USAID’s reasonable accommodation policies and procedures to be in compliance
with Executive Order 13164 and Equal Employment Opportunity Commission guidance.

The Office of Equal Opportunity Programs (EOP) concurs with this recommendation. EOP’s
action to comply with this recommendation includes:

•	 Modify USAID’s reasonable accommodation policy to properly address elements required by
   EO 13164 and the Equal Employment Opportunity Commission’s (EEOC) guidance, as
   identified in the January 3, 2002 letter from the EEOC.

Target Completion date: This action was completed on August 26, 2005.

A copy of the following document is included at Tab 1 for your review and records:

       1. 	 A copy of the email message transmitting the revised policy to M/IRD for review and
            approval.


Recommendation 2: We recommend that the Office of Equal Opportunity Programs
submit USAID’s revised reasonable accommodation policies and procedures to the
Equal Employment Opportunity Commission for final review.

The Office of Equal Opportunity Programs concurs with this recommendation. EOP’s actions to
comply with this recommendation include:

•	 Revise USAID’s reasonable accommodation policies and procedures to be in compliance
   with Executive Order 13164 and the EEOC’s guidance and submit to the EEOC for final
   review.

Target Completion Date: This action was completed on October 14, 2005.

•	 Resubmit to the EEOC, USAID’s reasonable accommodation policy and include the section
   on Reassignment.

Target Completion Date: This action was completed on November 14, 2005.

•	 Make all revisions to the reasonable accommodation policy to ensure the Agency’s
   compliance with EO 13164 and EEOC’s guidance resulting from subsequent EEOC reviews.

Target completion Date: Within 30 days of request

Copies of the following documents are included at Tab 2 for your review and records:

       1. 	 A copy of EOP’s letter dated October 14, 2005, transmitting to EEOC the reasonable
            accommodation policy for final review.
       2. 	 A copy of EOP’s letter dated November 14, 2005, transmitting to EEOC the section
            of USAID’s reasonable accommodation policy that references reassignment.

Recommendation 3: We recommend that the Office of Equal Opportunity Programs



                                                                                          17
                                                                                 APPENDIX II


publish USAID’s revised reasonable accommodation policies and procedures in the
Automated Directives System.

The Office of Equal Opportunity Programs concurs with this recommendation. EOP’s actions to
comply with this recommendation include:

•	 Submit USAID’s revised reasonable accommodation policy to M/IRD for approval.

Target Completion Date: This action was completed on August 26, 2005.

•	 Submit USAID’s approved interim reasonable accommodation policy to M/IRD for inclusion
   in the Automated Directive System. (ADS)

Target Completion Date: This action was completed on October 03, 2005.

•	 Post the approved interim reasonable accommodation policy update to the Agency’s notice
   system for agency-wide dissemination.

Target Completion Date: This action was completed on October 12, 2005.

•	 Update the ADS to include the EEOC approved reasonable accommodation policy.

Target Completion Date: Within 30 days after approved reasonable accommodation policy is
received from EEOC.

Copies of the following documents are included at Tab 3 for your review and records:

       1. 	 Revised reasonable accommodation policy submitted to M/IRD on August 26, 2005
       2. 	 Posted reasonable accommodation policy dated October 3, 2005, as published in
            ADS.
       3. 	 Agency wide notice transmitting the revised reasonable accommodation policy
            interim update

Recommendation 4: We recommend that the Office of Equal Opportunity Programs
establish a schedule to periodically review management reports of reasonable
accommodation requests to determine whether processing is occurring within required
timeframes.

The Office of Equal Opportunity Programs’ current tracking system is designed to capture
information on all employees’ contacts requesting reasonable accommodation. These contacts
are captured regardless of the employee’s final decision to pursue their request. The tracking
system’s current design fails to track the actual processing time. The actual processing time
begins on the date the employee provides the Disability Review Committee with all required
documentation through the date the employee is advised of the Committee’s determination.

The Office of Equal Opportunity Programs concurs with this recommendation. EOP’s actions to
comply with this recommendation include:

•	 Revise the reasonable accommodation tracking system to capture the actual processing
   time for reasonable accommodation requests as beginning with the receipt of all required
   information and ending with the mailing of the Disability Review Committee’s Notice of
   Determination to the requestor.
                                                                                        18
                                                                                APPENDIX II



Target Completion Date: March 1, 2006

•	 The EOP Director or designee shall conduct a quarterly review of the Agency’s reasonable
   accommodation tracking system.

Target Completion Date: Beginning January 1, 2006, and ongoing

Recommendation 5: We recommend that the Office of Equal Opportunity Programs
updates its tracking information on a periodic basis to accurately reflect requests,
elapsed processing time, final dispositions, and impact.

The Office of Equal Opportunity Programs concurs with this recommendation. EOP’s action to
comply with this recommendation includes:

•	 Designate an EOP staff person to maintain and update the Agency’s reasonable
   accommodation tracking system on or before the 15th of each month.

Target Completion Date: Beginning March 1, 2006, and ongoing




                                                                                       19
                                                                                                                         APPENDIX III

                              Equal Opportunity Program’s Reasonable Accommodation Requests


     Contact      Decision                                                                                                   Processing
No   Initiated    Date          Type                                                  W/D   GR   DN   INC   Denial Reasons   Time (Days)

 1   12/18/2001   2/6/2003      Ergonomic Keyboard & Mouse                                  1                    n/a            415
 2   3/18/2003    4/29/2004     Medical Clearance                                                1                4             408
                                Reassignment - File reopened 09/27/04 after medical
 3   12/3/2003    10/21/2004    documentation received                                           1                2             323

 4   6/18/2002    2/12/2003     Standing Authorization for Business Class Travel            1                    n/a            239

 5   11/8/2004    5/3/2005      Ergonomic Keyboard & Mouse                            1                          n/a            176

 6   8/27/2002    2/12/2003     Obus Forme Ergonomic Chair                                  1                    n/a            169

 7   9/29/2003    1/13/2004     Ergonomic Workstation & Chair                               1                    n/a            106

 8   3/31/2003    6/17/2003     Air Purifier with Hepa Filter & Vacuum Cleaner                   1                1              78

 9   1/24/2005    4/12/2005     Ergonomic Workstation                                                 1                          78

10   3/28/2005    6/9/2005      Ergonomic Mouse                                                       1           1              73

11   1/10/2003    3/19/2003     Ergonomic Keyboard & Mouse                                  1                    n/a             68

12   11/20/2002   1/22/2003     Ergonomic Keyboard Tray                                     1                    n/a             63

13   11/10/2004   1/11/2005     Ergonomic Work Station                                      1                    n/a             62

14   8/21/2002    10/21/2002    Standing Authorization for Business Class Travel            1                    n/a             61

15   1/21/2003    3/20/2003     Standing Authorization for Business Class Travel                 1                2              58

16   1/21/2003    3/19/2003     Standing Authorization for Business Class Travel            1                    n/a             57

17   12/4/2002    1/21/2003     Flexible Work Schedule & Telecommute                             1                3              48

18   8/18/2003    9/29/2003     Ergonomic Workstation and Office Furniture                  1                    n/a             42
19   1/4/2005     2/11/2005     Standing Authorization for Business Class Travel            1                    n/a             38



                                                                                                                                 20
                                                                                                                      APPENDIX III

                              Equal Opportunity Program’s Reasonable Accommodation Requests

     Contact      Decision                                                                                                Processing
No   Initiated    Date          Type                                               W/D   GR   DN   INC   Denial Reasons   Time (Days)

20   3/12/2003    4/17/2003     Ergonomic Manager's Chair                                1                    n/a             36
21   8/24/2003    9/29/2003     Interpreter                                              1                    n/a             36
22   6/16/2005    7/13/2005     Ergonomic Keyboard                                       1                    n/a             27
23   2/26/2003    3/20/2003     Ergonomic Manager's Chair                                1                    n/a             22
24   12/20/2004   1/11/2005     Ergonomic Keyboard                                       1                    n/a             22
25   10/20/2004   11/9/2004     Reassignment                                                  1                2              20
26   10/6/2004    10/21/2004    Computer Monitor                                         1                    n/a             15
27   4/29/2005    5/13/2005     Ergonomic Workspace                                      1                    n/a             14
28   5/27/2003    6/9/2003      Ergonomic Manager's Chair                                1                    n/a             13
29   5/4/2005     5/17/2005     Ergonomic Keyboard                                       1                    n/a             13
30   4/11/2003    4/23/2003     Disability Retirement                                    1                    n/a             12
31   7/1/2004     7/13/2004     Ergonomic Chair                                          1                    n/a             12
32   4/8/2003     4/17/2003     Ergonomic Manager's Chair                                1                    n/a             9
33   5/11/2005    5/19/2005     Special Chair                                      1                           4              8
34   1/31/2003    2/7/2003      Ergonomic Manager's Chair                                1                    n/a             7
35   10/9/2002                  Wheelchair                                                    1                1
36   4/2/2003                   Disability Parking Permit                                     1                6
37   8/27/2003                  Motorized Wheelchair                                          1                4
38   4/20/2004                  Flat Screen Monitor                                           1                1
39   12/3/2004    1/16/2004     Reassignment & Telecommute                                    1                4
40   10/29/2002                 Flexible Work Schedule & Telecommute               1                          n/a
41   12/20/2002                 Ergonomic Workstation                                                         n/a
42   6/11/2003                  Ergonomic Manager's Chair                                1                    n/a
43   8/7/2003                   Standing Authorization for Business Class Travel         1                    n/a
44   9/10/2003                  Obus Forme Ergonomic Chair                         1                          n/a



                                                                                                                                   21
                                                                                                                             APPENDIX III

                                Equal Opportunity Program’s Reasonable Accommodation Requests

        Contact      Decision                                                                                                    Processing
  No    Initiated    Date         Type                                               W/D    GR       DN   INC   Denial Reasons   Time (Days)

  45    9/29/2003                 Computer Monitor                                    1                              n/a
  46    6/22/2004                 Ergonomic Manager's Chair                           1                               5
  47    8/2/2004                  Ergonomic Chair and Mouse                           1                              n/a
  48    8/5/2004                  Ergonomic Chair and Footrest                        1                              n/a
  49    12/14/2004                Zoom text Software                                                      1          n/a
  50    12/20/2004                Ergonomic Chair                                     1                              n/a
  51    1/12/2005                 Ergonomic Keyboard and Mouse                        1                              n/a
  52    1/25/2005                 Large Screen Monitor                                1                              n/a
        TOTALS                                                                        11   26        11   4




Table Key:                                   Denial Reasons
Req – Request                                1 = Incomplete Documentation
W/D – Withdrawn                              2 = Accommodation Not Essential for Medical Condition
Ben – Benefits                               3 = Undue Hardship to USAID Operations
GR – Granted                                 4 = Medical Condition Not Qualified as Disability
DN – Denied                                  5 = Submitted in Error
Process – Calendar Days                      6 = Required More In-Depth EOP Review
INC – Information Incomplete

EOP did not complete or update information


Source: Unaudited Office of Equal Opportunity Programs’ data




                                                                                                                                         22
                                                                                 APPENDIX IV

                           EOP Staffing, Budget and Funding Requests 

                                       FY 2002 – FY 2004




                               Equal Opportunity Programs Staffing Positions 

                                  Available and Filled FY 2002 – FY 2004


                       8
                       7
                       6
                       5
                       4                                                         Positions Available
                       3                                                         Positions Filled
                       2
                       1
                       0
                                  FY 02       FY 03       FY 04




                               Equal Opportunity Programs Budget Request 

                                      and Funding FY 2002 – FY 2004



                 250,000

                 200,000

                 150,000
                                                                                  Budget Request
                 100,000                                                          Budget Funded

                   50,000

                           0
                                   FY 02        FY 03        FY 04


Source: Unaudited Office of Equal Opportunity Programs'Programs' Data.




                                                                                         23
                                                                                                                                  APPENDIX V

                                                  Comparison of
                 EEOC Guidance, USAID Reasonable Accommodation Policies/Procedures, and EEOC Review


                                 (1) Initiating the Reasonable Accommodation Process
      EEOC Guidance on Reasonable                        ADS 110.3.5.6                                       EEOC Review January 2002
            Accommodation
II.A Each Agency’s procedures must: “Explain         Subpart 6(a) If reasonable accommodation is      With respect to initiating the reasonable
that an employee or job applicant may initiate a     desired, an applicant or employee must           accommodation process, the following
request for reasonable accommodation orally or       request reasonable accommodation by filing a     element(s) required by the Executive Order do
in writing. If the Agency requires an applicant or   written request describing the disability that   not appear to be addressed properly in your
employee        to   complete    a     reasonable    necessitates the reasonable accommodation        procedures.
accommodation request form for recordkeeping         and describing the required accommodation,
purposes, the form must be provided as an            including administratively acceptable medical    The procedures must explain that an employee
attachment to the Agency’s written procedures.       documentation of the condition. The medical      or job applicant may initiate a request for
Executive Order Section 1(b)(1)                      documentation       must      address      the   reasonable accommodation either orally or in
                                                     requirements set forth in 5 CFR339.101-104.      writing. (Policy Guidance Section II.A) ADS
                                                     This written request must be made to the         110.3.5.6 (a) allows only written requests.
                                                     Director, EOP or to the Disability Employment
                                                     Program Manager in EOP, or, if the request is
                                                     made through the employee’s supervisor(s),
                                                     the Director, EOP or the Disability
                                                     Employment Program Manager in EOP must
                                                     be notified by the supervisor or Bureau/Office
                                                     management within five working days of the
                                                     request.      Mandatory Reference 5 CFR
                                                     339.101-104
II A.1 A request for accommodation is a                                                               The procedures may not require applicants or
statement that an individual needs an adjustment                                                      employees making requests to use specific
or a change at work or in the application process                                                     words (like reasonable accommodation) before
for a reason related to a medical condition.                                                          the request will be accepted. (Policy Guidance
Agencies may not require, for example, that                                                           Sec II.A) ADS procedures do not make this
individuals mention the Rehabilitation Act or use              See 110.3.5.6(a) Above                 clear and improperly require that a request
the phrase “reasonable accommodation.” The                                                            must describe the required accommodation.
Agency’s procedures should make this point
clear. Additional information, as appropriate, may
be obtained through the interactive process which
follows the request. Executive Order Section
1(b)(1)
II A.1 A request for accommodation is a                                                               ADS procedures improperly require that the
statement that an individual needs an adjustment                                                      request must automatically include all manner
or a change at work or in the application process                                                     of medical documentation.        A request for
for a reason related to a medical condition.                                                          accommodation is a statement that an
Agencies may not require, for example, that                    See 110.3.5.6(a) Above                 individual needs an adjustment or a change at
individuals mention the Rehabilitation Act or use                                                     work or in the application process for a reason
the phrase “reasonable accommodation.” The                                                            related to a medical condition.          (Policy
USAID’s procedures should make this point clear.                                                      Guidance, Section II.A.1.)            Additional
Additional information, as appropriate, may be                                                        information as appropriate may be obtained
                                                                                                                                          24
                                                                                                           APPENDIX V 

                                                   Comparison of
                 EEOC Guidance, USAID Reasonable Accommodation Policies/Procedures, and EEOC Review

                                 (1) Initiating the Reasonable Accommodation Process

      EEOC Guidance on Reasonable                        ADS 110.3.5.6 
                EEOC Review January 2002
            Accommodation
obtained through the interactive process which                                   through the interactive process which follows
follows the request. Executive Order Section                                     the request. Policy Guidance, Section II.B.10
1(b)(1)                                                                          (See also EEOC Enforcement Guidance:
                                                                                 Reasonable Accommodation and Undue
II.B.10    To    ensure      that    all   effective                             Hardship Under the Americans With
accommodations have been considered, Agency                                      Disabilities Act (March 1, 1999) Question 5.
procedures should require that decision makers                                   ADS wording may mislead a USAID official to
talk    to   the    individual    requesting     the                             incorrectly conclude that the referenced
accommodation where the specific limitation,                                     medical documentation or other information is
problem, or barrier is unclear; where an effective                               required in order to constitute an
accommodation is not obvious; or where the                                       accommodation request which triggers the
parties are choosing between different possible                                  interactive process.
reasonable accommodations.
EEOC Enforcement Guidance: Reasonable
Accommodation and Undue Hardship Under the
Americans With Disabilities Act (March 1, 1999)
Question 5. The employer and the individual with
a disability should engage in an informal process
to clarify what the individual needs and identify      See 110.3.5.6(a) Above
the appropriate reasonable accommodation. The
employer may ask the individual relevant
questions that will enable it to make an informed
decision about the request. This includes asking
what type of reasonable accommodation is
needed.
The exact nature of the dialogue will vary. In
many instances, both the disability and the type of
accommodation required will be obvious, and
thus there may be little or no need to engage in
any discussion. In other situations, the employer
may need to ask questions concerning the nature
of the disability and the individual’s functional
limitations in order to identify an effective
accommodation. While the individual with a
disability does not have to be able to specify the
precise accommodation, she/he does need to
describe the problems posed by the workplace
barrier.     Additionally, suggestions from the
individual with a disability may assist the employer
in determining the type of reasonable
accommodation to provide. Where the individual

                                                                                                                      25
                                                                                                            APPENDIX V
                                                   Comparison of
                 EEOC Guidance, USAID Reasonable Accommodation Policies/Procedures, and EEOC Review

                                 (1) Initiating the Reasonable Accommodation Process
      EEOC Guidance on Reasonable                        ADS 110.3.5.6                 EEOC Review January 2002
            Accommodation
or the employer are not familiar with possible
accommodations, there are extensive public and
private resources to help the employer identify
reasonable accommodations once the specific
limitations and workplace barriers have been
ascertained.
II.A.2          Although an Agency can, for                                     The procedures may not allow an USAID to
recordkeeping purposes, ask an applicant or                                     wait until after a written request or record-
employee to fill out a form, an individual’s oral                               keeping request form is received before
request will start the reasonable accommodation                                 processing an oral request for reasonable
process. Accordingly, the time limits set by the                                accommodation. Policy Guidance, Section
Agency’s procedures (see also Section C, Time          See 110.3.5.6(a) Above   II.A.2 ADS procedures do not make this clear.
Limits) must also run from the date of the oral
request. Of course, a request can be initiated in
writing if the individual prefers.
II A 3 Where an employee has requested a type                                   The procedures may not require that once an
of reasonable accommodation that she/he is likely                               employee requests and is granted a type of
to need on a repeated basis, for example, the                                   accommodation he or she is likely to need on a
assistance of sign language interpreters or                                     repeated basis (e.g. a sign language
readers – an agency may not require that the                                    interpreter), the employee nevertheless has to
individual submit a written request for                                         submit a written request for recording purposes
recordkeeping purposes each time the                                            each time the accommodation is needed.
accommodation is needed. Agency procedures             See 110.3.5.6(a) Above   Policy Guidance, Section II.A.3.           ADS
should provide that once the reasonable                                         procedures do not make this clear
accommodation is approved the first time, the
employee may obtain the accommodation by
notice to an appropriate individual or office (e.g.,
his/her       supervisor      or   a     centralized
accommodation office).
An agency’s obligation to consider an individual’s                              The procedures may not require that a request
request begins when the individual makes that                                   for accommodation must able made to only
request to any of the following: his/her supervisor;                            one particular USAID official. (Policy Guidance
a supervisor or manager in his or her immediate                                 Section II.A.5). ADS procedures appear to
chain of command; the EEO office; any other                                     limit to whom an individual can make a request
office designated by the agency to oversee the                                  for accommodation and is not consistent with
reasonable accommodation process; or, in                                        the range of USAID officials set forth in the
connection with the application process, any                                    Policy Guidance at Section II.A.5.
agency employee with whom the applicant has
contact. Agencies may also designate others, in
addition to those identified above, to whom            See 110.3.5.6(a) Above
requests may be made.
Agency procedures should advise the employees

                                                                                                                       26
                                                                                                                                 APPENDIX V
                                                   Comparison of
                 EEOC Guidance, USAID Reasonable Accommodation Policies/Procedures, and EEOC Review

                                 (1) Initiating the Reasonable Accommodation Process
      EEOC Guidance on Reasonable                        ADS 110.3.5.6                                     EEOC Review January 2002
            Accommodation
who are designated to receive reasonable
accommodation requests to then notify, if
necessary, any other agency personnel who will
be involved in the decision making.
II.A.6 A family member, health professional, or                                                     The procedures must allow a request for
other representative may request a reasonable                                                       reasonable accommodation to be made not
accommodation on behalf of an individual with a                 See 110.3.5.6(a) Above              just by the individual with a disability, but also
disability. Where possible, the agency should                                                       by a family member, health professional, or
then confirm with the person with a disability that                                                 other representative who is acting on the
she/he      in   fact    wants   a    reasonable                                                    individual’s behalf. (Policy Guidance, Section
accommodation.                                                                                      II.A.6) ADS procedures do not make this clear.

                                                                 (2) Time Limits
        EEOC Guidance on Reasonable                                  ADS 110.3.5.6                          EEOC Review January 2002
                Accommodation
II.C Each Agency’s procedures must: designate         Subpart 6(g) The Disability Review            With respect to time limits, the following
a time period during which reasonable                 Committee (DRC) must make a decision on       element(s) required by the Executive Order do
accommodations requests will be granted or            the request, by majority vote if necessary,   not appear to be addressed properly in your
denied, absent extenuating circumstances. Time        within 30 days of a request for               procedures.
limits for decision making should be as short as      accommodation that includes all necessary
reasonable possible. Executive Order, Section         medical documentation, and must prepare       The procedures must designate a time period
1(b)                                                  and deliver a written response to the         during which reasonable accommodation
                                                      requestor within 5 working days of the        requests will be granted or denied absent
                                                      decision.                                     extenuating circumstances. (Policy Guidance
                                                                                                    Section II.C). USAID procedures, at Section
                                                                                                    110.3.5.6(g), provide that an individual will be
                                                                                                    issued a written decision within 35 days of
                                                                                                    receipt     of     all   necessary      medical
                                                                                                    documentation.         However, since ADS
                                                                                                    procedures improperly require that all
                                                                                                    accommodation requests automatically be
                                                                                                    supported by all manner of medical
                                                                                                    documentation to which the USAID may not be
                                                                                                    entitled to in many cases, the 35-day time
                                                                                                    frame set forth in your procedures as currently
                                                                                                    drafted commences at an insufficiently specific
                                                                                                    point in time. Any time limit should commence
                                                                                                    from receipt of the request itself.
                                                                                                    To address the possible effect of delayed
                                                                                                    receipt of medical documentation on
                                                                                                    compliance with the time frame, you may wish
                                                                                                    to provide, for example, that the time limit will
                                                                                                                                              27
                                                                                                                                       APPENDIX V 

                                                    Comparison of
                  EEOC Guidance, USAID Reasonable Accommodation Policies/Procedures, and EEOC Review

                                                                     (2) Time Limits

       EEOC Guidance on Reasonable 
                                     ADS 110.3.5.6                            EEOC Review January 2002
             Accommodation
                                                                                                          be tolled if the USAID requests medical
                                                                                                          documentation, but will recommence running
                                                                                                          upon receipt of sufficient documentation.

                                                                  (3) Medical Information

      EEOC Guidance on Reasonable 
                                         ADS 110.3.5                              EEOC Review January 2002
              Accommodation
II.D  As the Executive Order states, each                 Subpart 6(a) If reasonable accommodation          With respect to medical information, the
Agency’s procedures must:                                 is desired, an applicant or employee must         following element(s) required by the
                                                          request reasonable accommodation by filing        Executive Order do not appear to be
 • Explain the responsibility of the employee or          a written request describing the disability that  addressed properly in your procedures.
   applicant to provide appropriate medical               necessitates the reasonable accommodation

   information related to the functional                
 and describing the required accommodation,        The procedures may not require the USAID
   impairment at issue and the requested                  including administratively acceptable medical     to obtain medical documentation in support of
   accommodation where the disability and/or              documentation of the condition. The medical       every accommodation request, regardless of
   need for accommodation is not obvious.                 documentation        must      address       the  the circumstances. (Policy Guidance, Section
 • Explain the Agencies right to request relevant         requirements set forth in 5 CFR 339.101-          II.D). ADS procedures sections 110.3.5.6.a
   supplemental medical information if the                104. This written request must be made to         and 110.3.5.6f(6) appear to require medical
   information submitted does not clearly explain         the Director of EOP or to the EOP Disability      documentation for all requests, improperly
   the nature of the disability, or the need for the      Employment Program Manager in EOP, or, if         requiring that the USAID is entitled to obtain,
   reasonable accommodation, or does not                  the request is made through the employee’s        and the individual must automatically submit,
   otherwise clarify how the requested                    supervisor(s), the Director EOP or the            any information defined in 5 CFR.339.102
   accommodation will assist the employee to              Disability Employment Program Manager 

   perform the essential functions of the job or to
      must be notified by the supervisor or            To the contrary, the procedures should make
   enjoy the benefits and privileges of the               Bureau/Office management within five             clear that, under the Rehabilitation Act, the
   workplace.                                             working days of the request. See Mandatory       USAID       may      only    obtain     medical
 • Explain the Agency’s right to have medical             Reference 5 CFR 339.101-104                      documentation       in    support      of    an
   info reviewed by a medical expert of USAID’s                                                            accommodation request where the disability
   choosing at USAID expense. Executive                   Subpart     6f(6)        In    approving      an and/or need for accommodation is not obvious
   Order Section 1(b)(4-6)                                accommodation,       or     disapproving      an or already known. In those instances, the
                                                          accommodation based on undue hardship,           USAID        may       require      reasonable
II.D.16 An agency is entitled to know that an             the Disability Review Committee must             accommodation necessary to establish that
employee or applicant has a covered disability            consider the following factors:                  the individual has a disability and needs the
that requires a reasonable accommodation.                                                                  accommodation. [Policy guidance Section
Thus, when a disability and/or need for                   (1) The nature and cost of the                   II.D.16-19; EEOC Enforcement Guidance:
accommodation is not obvious, the Agency may,             accommodation requested, and its impact on       Disability-Related Inquiries and Medical
if it chooses, require that the individual provide        the Agency;                                      Examinations of Employees Under the
reasonable documentation about the disability                                                              Americans With Disabilities Act (July 27, 2000)
and his/her functional limitations. Additionally, the     (2) The mission of the organization, which       7 & 10]
Agency        may        request      supplemental        the accommodation would impact;
documentation when the information already
submitted is insufficient to document the disability     (3) The structure and composition of the
and/or the functional limitations it causes. The         organization;
                                                                                                                                                   28
                                                                                                                                    APPENDIX V
                                                   Comparison of
                 EEOC Guidance, USAID Reasonable Accommodation Policies/Procedures, and EEOC Review

                                                              (3) Medical Information
        EEOC Guidance on Reasonable                                  ADS 110.3.5                                 EEOC Review January 2002
               Accommodation
agency is not required to request documentation      (4)    Any     pertinent legal    or   Agency
in such cases. The Agency’s procedures should,       precedents;
however, explain that failure to provide necessary
documentation, where it has been properly            (5)     The function, with or without
requested, could result in a denial of reasonable    accommodation, of the employee/applicant
accommodation.                                       requesting the accommodation;
If it chooses to seek medical information, an        (6)   Whether the medical documentation
Agency must, of course, conform to the               met the requirements of 5 CFR 339.104
requirements of the Rehabilitation Act. Under the    (Mandatory Reference, 5 CFR 339.104);
Act, an Agency may not request medical               and
information where (a) both the disability and the
need for reasonable accommodation are obvious;       (7)     Any written input by the supervisor.
or (b) the individual has already provided the
Agency with sufficient information to document
the existence of the disability and his/her
functional limitations.
                                                     Subpart 6(a) If reasonable accommodation is        The procedures must explain that, it is the
                                                     desired, an applicant or employee must             responsibility of the employee or applicant
                                                     request reasonable accommodation by filing         requesting reasonable accommodation to
                                                     a written request describing the disability that   provide appropriate medical information related
                                                     necessitates the reasonable accommodation          to the functional impairment and the requested
                                                     and describing the required accommodation,         accommodation where the need for a
                 See II.D.16 Above                   including administratively acceptable medical      reasonable accommodation is not obvious.
                                                     documentation of the condition. The medical        [Policy Guidance, Section II.D.16]
                                                     documentation        must      address       the
                                                     requirements set forth in 5 CFR 339.101-
                                                     104. This written request must be made to
                                                     the D/EOP or to the Disability Employment
                                                     Program Manager in EOP, or, if the request
                                                     is    made      through     the    employee’s
                                                     supervisor(s), the D/EOP or the Disability
                                                     Employment Program Manager in EOP must
                                                     be notified by the supervisor or Bureau/Office
                                                     management within five working days of the
                                                     request.     [Mandatory Reference 5 CFR
                                                     339.101-104.]
                                                                                                        The procedures must explain that, the USAID
                                                                                                        has a right to request relevant supplemental
                                                                                                        medical information if the information submitted
                                                                                                        does not clearly explain the nature of the
                                                                                                        disability, or the need for the reasonable
                                                                                                        accommodation or does not otherwise clarify

                                                                                                                                                29
                                                                                                                                      APPENDIX V 

                                                    Comparison of
                  EEOC Guidance, USAID Reasonable Accommodation Policies/Procedures, and EEOC Review

                                                                  (3) Medical Information

        EEOC Guidance on Reasonable 
                                    ADS 110.3.5                               EEOC Review January 2002
             Accommodation
                                                                    Not Addressed in ADS                how the requested accommodation will assist
                  See II.D.16 Above                                                                     the employee to perform the essential functions
                                                                                                        of the job or to enjoy the benefits and privileges
                                                                                                        of the workplace, or, in the case of an applicant,
                                                                                                        assist him or her with the application process.
                                                                                                        (Policy Guidance, Section II.D.16)
II.D.17 When the standards set forth above are                                                          The procedures must explain the USAID’s right
met, an Agency may request information or                                                               to have medical information reviewed by a
documentation regarding:                                                                                medical expert of USAID’s choosing at USAID’s
•	 the nature, severity & duration of the                                                               expense. (Policy Guidance, Section II.D.17-18)
     individuals impairment;
•	 the activity or activities that the impairment
     limits;
•	 the extent to which the impairment limits the
     individual’s ability to perform the activity or
     activities; and/or
•	 why the individual requires reasonable                           Not Addressed in ADS 

     accommodation or the particular reasonable 

     accommodation requested, a well as how the

     RA will assist the individual to apply for a job,

     perform the essentials functions of the job, or

     enjoy a benefit of the workplace. 

II.D.18 Where an Agency is entitled to request 

medical info under the standards set forth above,

the Agency may have that info reviewed by its

own medical expert at its’ own expense. 


                                                                    (4) Reassignment

         EEOC Guidance on Reasonable 
                                      ADS 110.                               EEOC Review January 2002
                 Accommodation
  II.E.23 Agency procedures must explain the              Subpart 5.4 Pursuant to 29 CFR With respect to reassignment, the following
  circumstances in which reassignment is                  1614.203(g), Reassignment, when a non- element(s) required by the Executive Order do
  required.    They must also clearly notify              probationary employee becomes unable to not appear to be addressed properly in USAID
  supervisors and other relevant Agency                   perform the essential functions of an procedures.

  employees about how and where they are
                 encumbered position, even with reasonable 

  required to conduct a search for available 
            accommodation due to a disability, USAID is    The     procedures      must    explain     the
  vacancies. Agency procedures should identify            required to reassign the individual to a       circumstances in which reassignment will be
  the personnel who are responsible for                   funded vacant position for which the           required as a reasonable accommodation if
  conducting the search and require these                 individual is qualified located in the same    USAID determines that no reasonable
  individuals to consult with the affected                commuting area and serviced by the same        accommodation will permit the employee with
  employee as necessary to determine whether              appointing authority, and at the same grade    a disability to perform the essential functions
  there are limits on the search the employee             or level, the essential functions of which the of 	his or her current position.        (Policy
                                                                                                                                                 30
                                                                                                                                     APPENDIX V 

                                                  Comparison of
                EEOC Guidance, USAID Reasonable Accommodation Policies/Procedures, and EEOC Review

                                                                   (4) Reassignment

      EEOC Guidance on Reasonable 
                                      ADS 110.                                  EEOC Review January 2002
               Accommodation
would like the Agency to conduct; whether the           individual would be able to perform with           Guidance, Section II.E.23)
employee is qualified for a particular job; or          reasonable accommodation if necessary.
whether the employee would need a                       Such an offer will not be required if USAID
reasonable accommodation to perform the                 can demonstrate that the reassignment
essential functions of a new position.”                 would impose an undue hardship on the
[Executive Order Section 1(b)(7)]                       operation of its program. [See Mandatory
                                                        Reference, 29 CFR 1614.203(g)]
                                                        In the absence of a position at the same
                                                        grade or level, an offer of a reassignment to
                                                        a vacant position, for which the individual is
                                                        qualified, at the highest available grade or
                                                        level below the employee’s current grade or
                                                        level will be required. The availability of such
                                                        a vacancy will not affect the employee’s
                                                        entitlement, if any to disability retirement
                                                        pursuant to 5 USC 8337 or 5 USC 8451.
                                                        (See Mandatory References, 5 USC 8337
                                                        and 5 USC 8451)
                                                        If USAID has already posted a notice or
                                                        announcement seeking applications for a
                                                        specific vacant position at the time it is
                                                        determined that an employee is disabled, the
                                                        USAID does not have an obligation to offer
                                                        such reassignment, but the individual must
                                                        be considered on an equal basis with other
                                                        applicants for the position.

                                                      (5) Denial of Reasonable Accommodation
      EEOC Guidance on Reasonable 
                                       ADS 110.                                  EEOC Review January 2002
              Accommodation
II.F Each Agency’s procedures must provide             Subpart 6(G) The Disability Review Committee        With respect to denials of reasonable
that reasonable accommodation denials be in            must make a decision on the request, by             accommodation, the following element(s)
writing and specify the reasons for denial.            majority vote if necessary, within 30 days of a     required by the Executive Order do not appear
                                                       request for accommodation that includes all         to be addressed properly in your procedures.
Where an Agency denies an individual’s                 necessary medical documentation, and must
request for a reasonable accommodation, it             prepare and deliver a written response to the       The procedures must provide that denials of
must notify the individual in writing of the denial    requestor with five working days of the             requests for reasonable accommodation will
and the reasons for it. The denial should be           decision.                                           be in writing and specifically explain the
written in plain language with as much                                                                     reasons the request was denied; (e.g. why the
specificity as possible, and should identify the       Subpart 6(j) An employee/applicant may file an      medical documentation is inadequate to

                                                                                                                                                31
                                                                                                                                       APPENDIX V
                                                  Comparison of
                EEOC Guidance, USAID Reasonable Accommodation Policies/Procedures, and EEOC Review

                                                      (5) Denial of Reasonable Accommodation
     EEOC Guidance on Reasonable                                          ADS 110.                                  EEOC Review January 2002
             Accommodation
employee or office that made the decision.             EEO complaint with EOP if he or she is not         establish that the individual has a disability or
                                                       satisfied with the accommodation decision or if    needs reasonable accommodation, why the
Where an Agency has denied a specific                  the reasonable accommodation is not                requested accommodation would not be
requested reasonable accommodation but                 implemented. A copy of the request and             effective, or why the accommodation would
offered to make a different one in its place, the      response,       and    any    implementation       pose an undue hardship)
Agency’s notice should explain both the                documents, must remain on file in EOP.
reasons for the denial of the requested
accommodation and the reasons that it believes
that the chosen accommodation will be
effective.
All agency denials must notify the individual that
she/he has a right to file an EEO complaint.
The Agency must also identify and explain any
Agency procedures that are available for
informal dispute resolution.
Where the Agency grants an individual’s
request for reasonable accommodation, there is
no requirement that the decision is in writing or
that reasons for the decision be provided to the
individual. Because the Agency is required to
track      its   processing     of     reasonable
accommodation requests, however, the Agency
should monitor its disposition of each request.
Provide that reasonable accommodation                                                                    The procedures must provide that denials of
denials be in writing and specify the reasons for                                                        requests for reasonable accommodation must
denial. Where an Agency denied an individual’s                                                           include information about the individual’s right to
request for a reasonable accommodation, it                                                               file an EEO complaint and to invoke other
must notify the individual in writing of the denial                                                      statutory processes as appropriate, as well as
and the reasons for it. The denial should be in                                                          the availability of the informal dispute resolution
plain language with as much specificity as soon                                                          process.
as possible, and should identify the employee
or office that made the decision.
Where an Agency has denied a specific                                See 3.5.6(j) above
requested reasonable accommodation but
offered to make a different one in its place, the
Agency’s notice should explain both the
reasons for the denial of the requested
accommodation and the reasons that it believes
that the chosen accommodation will be
effective.
                                                                                                                                                    32
                                                                                                                         APPENDIX V 

                                                 Comparison of
               EEOC Guidance, USAID Reasonable Accommodation Policies/Procedures, and EEOC Review

                                                     (5) Denial of Reasonable Accommodation
     EEOC Guidance on Reasonable 
                                   ADS 110.                          EEOC Review January 2002
           Accommodation
Where the Agency grants an individual’s
request for reasonable accommodation, there is
no requirement that the decision be in writing or               Not addressed in ADS          See Above
that reasons for the decision be provided to the
individual. Because the Agency is required to
track     its   processing     of    reasonable
accommodation requests, see Section G,
however, the Agency should monitor its
disposition of each request.

                                                             (6) Information Tracking
       EEOC Guidance on Reasonable 
                                 ADS 110.                           EEOC Review January 2002
                Accommodation
 II.G. Each Agency’s procedures must: “Ensure                                                 With respect to information tracking, the
 that Agencies’ systems of recordkeeping track                                                following element(s) required by the Executive
 the processing of requests for reasonable                                                    Order do not appear to be addressed properly
 accommodation         and      maintain     the                                              in your procedures.

 confidentiality of medical information received 

 in accordance with applicable law and
                                                       The procedures must ensure that the USAID’s
 regulation.” [Executive Order, Section 1(b)(9)]                                              systems of record keeping track the
                                                                                              processing of requests for RA and maintain the
 II.G.24 The order does not require that                                                      confidentiality of medical information received
 Agencies maintain particular recordkeeping                                                   in accordance with applicable law and
 systems,       documents,        or    databases.                                            regulations, so as to permit the USAID to
 Nonetheless, all agencies must be able to                                                    identify at least the following information.
 identify at least the following information:                   Not Addressed in ADS          [Policy Guidance, Section II.G.24]
 •   The number and types of reasonable                                                     • Number of reasonable accommodations
     accommodations      that    have     been                                                requested, by type & whether granted or
     requested in the application process and                                                 denied,

     whether those requests have been
                                                        The jobs that reasonable accommodations
     granted or denied,                                                                        have been requested for,
 •   The jobs (occupational series, grade level,                                            • Types of reasonable accommodations for
     and Agency component) for which                                                          each of those jobs,

     reasonable accommodations have been 
                                                  • Number of reasonable accommodations, by
     requested;                                                                               type for each job approved and denied,
 •   The types of reasonable accommodation                                                    Number of reasonable accommodation
     that have been requested for each of                                                     requests by type related to benefits or
     those jobs;                                                                              privileges of employment and whether
 •   The number and types of reasonable                                                       approved/denied,

     accommodation for each job by Agency 
                                               •    Reasons for denial of reasonable
     component, that have been approved, and                                                   accommodation request,
                                                                                                                                     33
                                                                                                              APPENDIX V
                                                  Comparison of
                EEOC Guidance, USAID Reasonable Accommodation Policies/Procedures, and EEOC Review

                                                      (6) Information Tracking
         EEOC Guidance on Reasonable                          ADS 110.                      EEOC Review January 2002
                   Accommodation
       the number and types that have been                                        • Amount of time taken to process each
       denied;                                                                      reasonable accommodation request, and
 • The number and types of requests for                                           • Source of technical assistance consulted in
       reasonable accommodations that relate to                                     identifying reasonable accommodations.
       the benefits or privileges of employment,
       and whether those requests have been
       granted or denied;
 • The reasons for denial of request for
      reasonable accommodation;
 • The amount of time taken to process each
      reasonable accommodation; and
 • The sources of technical assistance that
      have been consulted in trying to identify
      possible reasonable accommodations.
II.D.20 The Rehabilitation Act requires that all                                 The procedures must detail how the USAID will
medical information be kept confidential. This                                   ensure that medical records are kept
means that all medical information that an                                       confidential, meaning maintained in files
Agency obtains in connection with a request for                                  separate from the individual’s official personnel
reasonable accommodation must be kept in                                         file, and to whom and under what
files separate from the individual’s personnel                                   circumstances medical information may be
file. In addition, individuals who have access to                                disclosed, pursuant to the exceptions listed in
information necessary to make a decision about                                   the Policy Guidance, Section II.D.20 & II.G.26
whether to grant a requested accommodation
may not disclose this information except as
follows:
     • Supervisors and managers who need to
          know may be told about necessary
          restrictions on the work or duties of the
          employee and about the necessary
          accommodation(s);
     • First aid and safety personnel may be
          told if the disability might require
          emergency treatment;
     • Government officials may be given
          information necessary to investigate the
          Agency’s      compliance     with     the
          Rehabilitation Act;
     • The information may in certain
          circumstances be disclosed to workers’
          compensation offices or insurance
          carriers; and
     • Agency EEO officials may be given the
          information to maintain records and

                                                                                                                          34
                                                                                                 APPENDIX V 

                                                  Comparison of
                EEOC Guidance, USAID Reasonable Accommodation Policies/Procedures, and EEOC Review

                                                      (6) Information Tracking
       EEOC Guidance on Reasonable                            ADS 110.             EEOC Review January 2002
               Accommodation
        evaluate and report on the Agency’s
        performance in processing reasonable
        accommodation requests.                         Not Addressed in ADS
Where medical information is disclosed to any
of the foregoing officials, the Agency must
inform those individuals about the confidentiality
requirements that attach to the information.
II.G.26 Records that contain medical
information about a particular individual with a
disability are fully subject to the confidentiality
restrictions discussed above in Section D.
Thus, the USAID’s recordkeeping systems
must contain safeguards to ensure that those
restrictions are fully observed. The Agency’s
procedures should detail how the Agency will
ensure that medical records are segregated
from official personnel files and to whom and
under what circumstances medical information
may be disclosed. Agency procedures should
make clear that the EEOC has the right to
review all relevant records upon request to
evaluate the efficacy of the Agency’s
reasonable accommodation procedures.
If an Agency creates tracking records that
contain merely aggregate information –
information that does not, and cannot be used
to, identify any particular individual with a
disability – the records will not be subject to the
confidentiality restrictions of the Rehabilitation
Act. Records that identify, for example, the
number and types of requests for reasonable
accommodation made by job category, will
likely not contain medical information about
specific employees or applicants with
disabilities.




                                                                                                          35
                                                                                                               APPENDIX V 

                                                 Comparison of
               EEOC Guidance, USAID Reasonable Accommodation Policies/Procedures, and EEOC Review




                                                   (7) Informal Dispute Resolution
         EEOC Guidance on Reasonable                            ADS 110.                      EEOC Review January 2002
                 Accommodation
II.H.      Each Agency’s procedures must:                                            With respect to informal dispute resolution,
“Encourage the use of informal dispute                                               the following element(s) required by the
resolution processes to allow individuals with                                       Executive Order do not appear to be
disabilities to obtain prompt reconsideration of                                     addressed properly in your procedures.
denials      of   reasonable    accommodation.
Agencies must also inform individuals with                Not Addressed in ADS       The procedures must encourage the use of
disabilities that they have the right to file                                        informal dispute resolution processes to allow
complaints in the Equal Employment                                                   individuals with disabilities to obtain prompt
Opportunity process and other statutory                                              reconsideration of denials of reasonable
processes, as appropriate if their requests for                                      accommodation. (Policy Guidance, Section
reasonable accommodation are denied.                                                 II.H)
[Executive Order, Section 1(b)(10)]




                                                                                                                           36
U.S. USAID for International Development
        Office of Inspector General
        1300 Pennsylvania Ave, NW
          Washington, DC 20523
 Tel: (202) 712-1150 Fax: (202) 216-3047
            www.usaid.gov/oig
